No. 19In the

Supreme Court of the United States
RITA GUERRERO, INDIVIDUALLY AND
AS THE SPECIAL ADMINISTRATOR OF
THE ESTATE OF CELSO N. GUERRERO,
Petitioner,
v.
BNSF RAILWAY COMPANY,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert B. Patterson
Counsel of Record
Law Offices of Robert B. Patterson, Ltd.
One East Wacker Drive, Suite 2020
Chicago, IL 60601
(312) 329-9400
rbpltd@sbcglobal.net
Counsel for Petitioner

292377

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Under the provisions of the Federal Employers’
Liability Act, 45 U.S.C. sec 51 et seq., Petitioner, Rita
Guerrero, filed suit against her husband’s employer, BNSF
Railway Company, to recover damages arising from the
death of her husband in a motor vehicle collision which
occurred while he was on duty, responding to a Call by his
supervisor to report for work to clear switching equipment
during a severe snowstorm. On Respondent’s Motion For
Summary Judgment, the District Court granted summary
judgment on the sole ground that there was not sufficient
evidence to raise a question of fact whether decedent was
within the scope of his employment at the time of the
collision. (App. B, 14a). On appeal, the Seventh Circuit
Court of Appeals found there was evidence from which a
jury could conclude decedent was within the scope of his
employment, and thereby covered by FELA, but affirmed
summary judgment in favor of BNSF on an alternative
ground asserted by Respondent, not considered by the
District Court, that there was insufficient evidence to raise
a jury question whether BNSF was guilty of negligence
which contributed to its employee’s death. (App. A, 1a).
The questions presented for review are:
1. Whether the decision by the Seventh Circuit
panel conflicts with provisions of the Federal Employers’
Liability Act, and the uniform precedents of this Court,
providing Petitioner the Seventh Amendment right to a
jury trial, when the evidence shows that decedent was on
duty, “under pay,” subject to control by his supervisor, and
responding to his supervisor’s direction to report for work
to clear switches during a severe snow storm, in order to
maintain interstate rail service.

ii
2. Whether the precedent set by this Seventh Circuit
decision usurps petitioner’s right to a jury trial and
therefore cannot stand because it will erode Congress’
and this Court’s strong uniform effectuation of the jury
as the body charged with deciding questions of fact in
FELA cases.

iii
LIST OF PARTIES
The parties to this proceeding are listed in the caption.

iv
CORPORATE DISCLOSURE STATEMENT
Respondent, BNSF Railway Company, is a Delaware
Corporation, and is a wholly owned subsidiary of
Burlington Northern Santa Fe, LLC, a Delaware Limited
Liability Company.

v
LIST OF RELATED PROCEEDINGS
Guerrero v. BNSF Railway Company, No. 1:17-cv01044, U.S. District Court for the Central District of
Illinois, Peoria Division. Judgment entered January 3,
2019.
Guerrero v. BNSF Railway Company, No. 19-1187,
U.S. Court of Appeals for the Seventh Circuit. Judgment
entered July 17, 2019. Rehearing denied August 14, 2019.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
LIST OF RELATED PROCEEDINGS . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
Proceedings Below: . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Evidence Supporting Questions Of Fact: . . . . . . 4
Mr. Guerrero Was On Duty, “Under Pay,”
Subject To Control By BNSF:  . . . . . . . . . . . . . . . 8
REA SONS FOR A LLOWA NCE OF THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

vii
Table of Contents
Page
A. Certiorari Is Warranted Because The Decision
Of The Court Of Appeals Directly Conflicts
With Petitioner’s Seventh Amendment Right
To Jury Trial Provided By The Federal
Employers’ Liability Act And Settled
Precedents From The Supreme Court . . . . . . . 10
B. Certiorari Is Also Warranted In Order To
Prevent Erosion Of The Settled Right To
Jury Trial In FELA Cases By The Opinion
Below Which Alters The Liberal Standard
For Entrusting Questions Of Fact As To
Negligence To The Jury, And Restricting
Such Decisions From The Court . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

viii
TABLE OF APPENDICES
Page
Appendix A — opinion of the UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED July 17, 2019 . . . . 1a
A ppendi x B — O R D E R of the
united states DISTRICT COURT
FOR T H E Central DIST RIC T OF
ILLINOIS, PEORIA DIVISION, DATED
JANUARY 3, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . 14a
Appendix c — denial of the united
states court of appeals for the
seventh circuit, chicago, illinois
60604, filed august 14, 2019 . . . . . . . . . . . . . . 24a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Bailey v. Central Vermont Ry. Inc.,
319 U.S. 350 (1943)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Blair v. Baltimore & O.R. Co.,
323 U.S. 600 (1945) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Consolidated Rail Corporation v. Gottshall,
512 U.S. 532 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CSX Transportation, Inc. v. McBride,
564 U.S. 685 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . 15, 22
Dennis v.
Denver & Rio Grande Western Railroad Co.,
375 U.S. 208 (1963)  . . . . . . . . . . . . . . . . . . . . .  14, 16, 18
Duffield v. Marra, Inc.,
166 Ill.App.3d 754 (5th Dist. 1988) . . . . . . . . . . . . . . 19
Empey v. Grand Trunk Western R. Co.,
869 F.2d 293 (6th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 19
Erie Railroad Company v. Winfield,
244 U.S. 170 (1917) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Gallick v. Baltimore & Ohio Railroad Company,
372 U.S. 108 (1963)  . . . . . . . . . . . . . . . . . . . . .  14, 15, 21

x
Cited Authorities
Page
Howes v. Baker,
16 Ill.App.3d 39 (1st Dist. 1973) . . . . . . . . . . . . . . . . . 19
Kernan v. American Dredging Co.,
355 U.S. 426 (1958) . . . . . . . . . . . . . . . . . . . . . . . . 11, 20
Lavender v. Kurn,
327 U.S. 645 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Mills v. CSX Transportation, Inc.,
300 S.W.3d 627 (Tenn. 2009)  . . . . . . . . . . . . . . . . . . . 19
New York C.R. Co. v. Winfield,
244 U.S. 147 (1917) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Payne v. CSX Transportation, Inc.,
467 S.W.3d 413 (Tenn. 2015) . . . . . . . . . . . . . . . . . . . . 19
Pehowic v. Erie Lackawanna Railroad Company,
430 F.2d 697 (3d Cir. 1970) . . . . . . . . . . . . . . . . . . . . . 20
Rogers v. Missouri Pacific Railroad Co.,
352 U.S. 500 (1957) . . . . . . . . . . . . . . . . . . . . . . . passim
Sentilles v. Inter-Caribbean Shipping Corp.,
361 U.S. 107 (1959)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Shenker v. Baltimore & Ohio R.R. Co.,
374 U.S. 1 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

xi
Cited Authorities
Page
Sinkler v. Missouri Pacific R. Co.,
356 U.S. 326 (1958) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Tennant v. Peoria & P.U. Ry. Co.,
321 U.S. 29 (1944)  . . . . . . . . . . . . . . . . . . . . . . . . . 12, 21
Urie v. Thompson,
337 U.S. 163 (1949)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 20
Webb v. Illinois Central Railroad Co.,
352 U.S. 512 (1957)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Yarde v. Hines,
238 S.W. 151 (Mo. App. 1922) . . . . . . . . . . . . . . . . . . . 19
Statutes & Other Authorities:
Seventh Amendment to the Constitution
of the United States  . . . . . . . . . . . . . . . . . . . . . . passim
45 U.S.C. sec. 51 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4
45 U.S.C. sec. 54 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
28 U.S.C. sec. 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINIONS BELOW
The Opinion of the United States Court of Appeals for
the Seventh Circuit (Appendix A, pp. 1a – 13a) was filed
on July 17, 2019, and is reported at Guerrero v. BNSF
Railway Company, 929 F.3d 926 (7th Cir. 2019).
The Order of the United States District Court for the
Central District of Illinois, Peoria Division (Appendix B,
pp. 14a – 23a) was filed on January 3, 2019.
The Denial of Rehearing by the United States Court
of Appeals for the Seventh Circuit (Appendix C, pp. 24a
– 25a) was filed on August 14, 2019.
STATEMENT OF JURISDICTION
This Court’s jurisdiction is invoked under 28 U.S.C.
sec. 1254(1).
The Seventh Circuit Court of Appeals’ Opinion was
filed on July 17, 2019. (App. A, 1a). On August 14, 2019,
the Seventh Circuit Court of Appeals denied Petitioner’s
Petition For Rehearing. (App. C, 24a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Seventh Amendment to the Constitution of the United
States.
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury shall be

2
otherwise re-examined in any Court of the United States,
than according to the rules of the common law.
Title 45 United States Code, Section 51.
Liability of common carriers by railroad, in interstate
or foreign commerce, for injuries to employees from
negligence; employee defined
Every common carrier by railroad while engaging in
commerce between any of the several States or Territories,
or between anyof the States and Territories, or between the
District of Columbia and any of the States or Territories,
or between the District of Columbia or any of the States
or Territories and any foreign nation or nations, shall be
liable in damages to any person suffering injury while he
is employed by such carrier in such commerce, or, in case
of the death of such employee, to his or her personal
representative, for the benefit of the surviving widow or
husband and children of such employee; and, if none, then
of such employee’s parents; and, if none, then of the next of
kin dependent upon such employee, for such injury or death
resulting in whole or in part from the negligence of any of
the officers, agents, or employees of such carrier, or by
reason of any defect or insufficiency, due to its negligence,
in its cars, engines, appliances, machinery, track, roadbed,
works, boats, wharves, or other equipment.
Any employee of a carrier, any part of whose duties as
such employee shall be the furtherance of interstate or
foreign commerce; or shall, in any way directly or closely
and substantially, affect such commerce as above set forth
shall, for the purposes of this chapter, be considered as
being employed by such carrier in such commerce and shall
be considered as entitled to the benefits of this chapter.

3
STATEMENT OF THE CASE
Petitioner, Rita Guerrero, petitions for issuance of
a Writ of Certiorari to the U. S. Court of Appeals for
the Seventh Circuit to reverse the 7th Circuit’s decision
entered on July 17, 2019, and denial of Rehearing entered
on August 14, 2019, which usurp this FELA employee’s
right to jury trial, contrary to the provisions of the Federal
Employer’s Liability Act, 45 U.S.C. sec. 51 et seq., and
contrary to the uniform decisions of this Court, lest the
strict standard for providing the remedial and humane
right of recovery Congress provided be denied.
Proceedings Below:
The U.S. District Court for the Central District of
Illinois, Peoria Division, granted summary judgment on
January 3, 2019 in favor of respondent, BNSF Railway
Company (App. B, 14a), on the single ground that the
District Judge found no material questions of fact whether
petitioner’s deceased husband, Celso Guerrero, was within
the scope of his employment for BNSF when he was
involved in a motor vehicle collision on February 1, 2015
resulting in his death on February 2, 2015. The District
Judge did not address or rule on respondent’s alternative
contention that there was not sufficient evidence to raise
a question of fact whether BNSF, through the acts and
omissions of its Roadmaster, could be found negligent by
a jury in his management of decedent Guerrero.
In its Opinion, the 7th Circuit panel disagreed with
the District Court, finding that there was a question of
material fact about the scope of employment question,
precluding summary judgment on that ground. (App. A,
8a-9a). But the panel nonetheless affirmed the District

4
Court’s grant of summary judgment on the alternative
ground that no reasonable jury could find BNSF was
negligent. The facts which follow focus on the 7th Circuit’s
decision to grant summary judgment on the alternative
ground that there was insufficient evidence on which a
jury could base a finding that BNSF, by its Roadmaster,
was negligent in subjecting its employee, Guerrero, to
the extreme hazard of traveling through a known severe
snowstorm while on duty, responding to the Roadmaster’s
Call. Petitioner contends that there was ample evidence
upon which a jury could decide that the Roadmaster was
negligent in exposing Guerrero to the dangerous storm
conditions, such that this Opinion directly conflicts with
this Court’s uniform decisions affirming the right of
FELA claimants to submit their claims to a jury under
the Seventh Amendment, as intended by Congress.
The Evidence Supporting Questions Of Fact:
This action under the Federal Employer’s Liability
Act, 45 U.S.C. sec. 51 et seq., was brought by petitioner,
Rita Guerrero, the widow and Special Administrator of
the Estate of her husband, Celso Guerrero, to recover
compensatory money damages from the respondent,
BNSF Railway Company (hereafter BNSF), due to his
death on February 2, 2015 resulting from injuries he
suffered on February 1, 2015 in a motor vehicle collision
which occurred as he was responding to his supervisor’s
Call to report for snow clearance work at the BNSF
Galesburg facility. Celso Guerrero lived in Kewanee,
Illinois, approximately 40 miles from the Galesburg
Yard. He had worked for BNSF for 35 years as a machine
operator on the BNSF surface gang on a regular work
shift of five days per week, Monday through Friday. (D.

5
26, at 4).1 His work mostly involved track repair, but as
weather conditions required, maintenance of way workers
were also specially tasked to perform snow clearance. (D.
26-2, Exh. C, Burwell dep. at 6:3-10, 29:14-30:1).
On Friday, January 30, 2015, a heavy snowstorm was
forecast for the Galesburg area. (D. 26-3, Exh D, D. Parish
dep. at 18:13-19). Unlike neighboring Roadmaster, Dan
Parish, who arranged on Friday to bring his crew in, Mr.
Guerrero’s supervising Roadmaster, Nicholas Burwell,
did not pre-arrange with him to come in for work on the
weekend to perform anticipated snow clearance work.
(D. 26-2, Exh. C, Burwell dep. at 28:14-18). Roadmaster
Parish testified: “We were told by our boss at the time
that we needed to help out in whatever way to cover our
own territories on that particular day. . . . The boss tells
you that, you comply, you don’t you? . . . You better.” (D.
26-3, Exh. D, D. Parish dep. at 21:24-22:10, 25:24-26:4).
From updated weather forecasts on Saturday,
Roadmaster Burwell learned that the snow would get
heavier overnight, so he would need 8-10-12 additional men
“to keep the tracks cleared.” (D. 26-2, Exh. C, Burwell dep.
at 32:21-33:12). Celso Guerrero was needed for Guerrero’s
type of work to have more bodies for the big facility and
amount of switches that needed to be cleaned out. (D.
26-3, Exh. D, D. Parish dep. at 18:20-19:4). Burwell also
knew that the snow was going to worsen; that the people
he called to come in on Sunday, February 1 at 7:00 a.m.
had to travel the roads that were getting snow covered;
and that the only way they could get to work was by their
1. Record citations are to the District Court pleadings and
evidence filed for the summary judgment motion.

6
own private vehicles on those highways. (D. 26-2, Exh. C,
Burwell dep. at 38:7-39:6). After the forecast for the storm
worsened, on Saturday, January 31, 2015 at approximately
6:00 p.m., Roadmaster Burwell called Mr. Guerrero at
home to request that he come in by 7:00 a.m. Sunday to
work overtime to clear snow in the Galesburg Yard. (D.
26-2, Exh. C, Burwell dep. at 30:14-31:17, 56:2-5). Burwell
knew he could rely on Celso Guerrero, a pretty good
worker, dependable, never had any disputes, and didn’t
turn down overtime. (D. 26-2, Exh. C, Burwell dep. at
36:7-17).
Roadmaster Parish testified: “It was a heck of a
snowstorm.” (D. 26-3, Exh. D, D. Parish dep. at 26:3).
Weather records cited by the court (App. A, 3a, 11a)
indicate that 8 inches of snow, fully 1/3rd of the average
annual total snowfall at Galesburg, fell that night. BNSF
Structures Supervisor, Ellen Burns, was also helping the
Roadmaster team at the Galesburg Terminal for winter
storm coverage, calling in backup employees from a preplanned manpower list, if the weather became inclement.
(D. 26-10, Exh. I, Burns dep. at 16:4-14, 31:24-33:31).
Roadmaster Burwell remarked that after he called his
crew, “Did I stay up to watch the snow? No.” (D. 26-2,
Exh. C, Burwell dep. at 37:6-9).
IDOT snow plow operator, Mark Parrish (no relation
to Dan Parish), had begun plowing Snow Route 2 on
Route 34 at about 10:00 p.m. Saturday. (D. 26-6, Exh. E,
M. Parrish dep. at 6:6-22, 7:11-15). By 5:30 a.m. Sunday,
he had completed 10 passes in 5 trips clearing snow in
each direction on his 20 mile route. (D. 26-6, Exh. E, M.
Parrish dep. at 27:4-14).The rate of snowfall had increased,
and the snow was 4 to 5 inches deep on Route 34 in that

7
area on February 1, 2015. (D. 26-6, Exh. E, M. Parrish
dep. at 51:19-52:4, 28:12-16).
Mr. Guerrero left his home in Kewanee at approximately
5:00 a.m. driving his personal auto towards the Galesburg
Yard. (D. 26-1, Exh. B, R. Guerrero dep. at 20:12-14). While
driving southbound on Rt. 34, near Oneida, Illinois, Mr
Guerrero’s auto slid on the roadway into collision with
Mark Parrish’s IDOT snowplow travelling northbound,
resulting in his death the next day, February 2. (D. 26,
p. 5, para. 8; p. 6, para. 11-12; D. 26-7, Exh. F, Worsfold
dep. at 33-45).
Illinois State Trooper Callie Worsfold was called in
early, at 2:30 to 2:45 a.m., because they knew with such a
large amount of snowfall predicted, it was going to be very
troublesome for traffic. (D. 26-7, Exh. F, Worsfold dep.
at 9:17-23). She was called to the scene of the collision on
February 1, 2015, arriving at about 6:00 a.m. (D. 26-7, Exh.
F, Worsfold dep. at 4:7-9, 14:11-13). She thought it would
take a bit to get there because the road was completely
snow covered by a “good probably three inches or more”
of snow on the ground. (D. 26-7, Exh. F, Worsfold dep. at
11:11-19, 13:7-10). She saw no snowplows; Rt. 34 appeared
it had not been plowed; and “I was the plow, it felt like.”
(D. 26-7, Exh. F, Worsfold dep. at 14:13-18). She testified
it was dangerous to drive on that Highway 34 that night
under the conditions. (D. 26-7, Exh. F, Worsfold dep. at
58:10-12). She later spoke to Mark Parrish and to Celso
Guerrero at the hospital, and did not issue any traffic
citations. (D. 26-7, Exh. F, Worsfold dep. at 19:19-20:8,
29:22-30:2, 37:8-14, 47:22-24). IDOT driver Mark Parrish
testified the portion of Rt. 34 he was plowing was “. . .
notorious for drifting and blowing snow.” (D. 26-6, Exh.
E, M. Parrish dep. at 15:9-10).

8
Mr. Guerrero Was On Duty, “Under Pay,” Subject To
Control By BNSF:
For a regularly scheduled workday, employees are not
paid until the employee arrives at the work location and
the shift starts. (D. 26-2, Exh. C, Burwell dep. at 25:2-7).
However, per Rule 30, subpart C, of the union contract,
employees who are called into work after release from
duty begin to work and be paid from the time called in to
when they report to the designated point. [D. 26-9, Exh. H,
Rule 30(C)]. Despite the collision, Mr. Burwell approved a
“settlement claim statement” for Celso Guerrero’s wages
from the time Mr. Guerrero agreed by phone to work
overtime at 6:00 p.m. Saturday to the planned arrival
time of 7:00 a.m. on Sunday. (D. 26-2, Exh. C, Burwell
dep. at 13:19-14:16). James Hurlburt, a BNSF labor
relations lawyer, testified that Mr. Guerrero was “under
pay” “being paid from the time the phone call came to his
house under Rule 30(C), and so would not be entitled to a
$300,000 Death Benefit under the CBA.” (D. 28-1, Exh.
J, Hurlburt dep. at 19:5-20, 21:8-22:5).
Mr. Guerrero was considered “under pay” from the
time of the 6:00 p.m. call on this Saturday of his off-duty
weekend. He was required to report to the Galesburg Yard
on time, to be adequately rested, to be fit for duty, and to
have his necessary equipment. (D. 26-3, Exh. D, D. Parish
dep. at 38:17-39:10, 46:10-47:19). Ms. Burns testified that
during the time after the 6:00 p.m. Call, the employee “. . .
should be preparing, resting, getting ready for work before
you come in to work, . . . and not partake in other activities
that would be detrimental to your safety in your ability to
do your job.” (D. 26-10, Exh. I, Burns dep. at 43:12-44:6).

9
After Mr. Guerrero went into an “under pay” status,
he was subject to directions by his supervisor. The
Roadmaster “has the authority to tell him what time he
wants him to arrive or any other railroad related tasks
that they want him to perform.” (D. 26- 10, Exh. I, Burns
dep. at 17-23). If the supervisor deemed a particular
highway dangerous, the supervisor could tell the employee
to avoid that highway and use a different highway. (D. 2610, Exh. I, Burns dep. at 45:12-16). When Mr. Guerrero
comes in at the request of his Roadmaster to respond to
an inclement weather situation, he’s doing it because the
railroad needs him. (D. 26-10, Exh. I, Burns dep. at 31:516). As a 24/7 operation moving passengers and freight,
it was for the benefit of the railroad to have Guerrero and
others called in to keep the tracks and switches open. (D.
26-3, Exh. D, D. Parish dep. at 50:10-22).
It’s the judgment of the supervisor, Burwell, if he
wants to bring an employee in early before the storm
really hits and it gets dangerous, because it’s going to
get bad later, “and we want to get you here . . .”. (D. 263, Exh. D, D. Parish dep. at 55:16-56:9). Burwell had the
authority during the interim period after the 6:00 p.m.
Call, to tell Mr. Guerrero to “mount up” to arrive at any
time earlier than 7:00 a.m. the next morning; to come
now; or at 3:00 a.m. or at 5:00 a.m. (D. 26-3, Exh D, D.
Parish dep. at 65:20-66:10). If Mr. Guerrero got a call
with a direction from his supervisor while on his way to
Galesburg, whatever the direction might be, he’s expected
to follow that direction. (D. 26-3, Exh. D, D. Parish dep.
at 47:12-18). Roadmaster Parish testified: “If they call
an employee like Celso and ask him to come in, if he is
available, they expect him to comply.” “If they can do it,
you expect them to come in.” (D. 26-3, Exh. D, D. Parish
dep. at 22:11-22).

10
The supervising Roadmaster also had authority to
provide hotel accommodations at the Best Western in
Galesburg for the workers called in for overtime (D. 2610, Exh. I, Burns dep. at 37:1-16), if he wants to bring the
employees in early because it’s going to get bad and “we
want to get you here.” (D. 26-3, Exh D, D. Parish dep. at
55:16-56:9). Ellen Burns had been put up in a hotel before,
when there was a storm and she did not feel safe making
it home. (D. 26-10, Exh. I, Burns dep. at 37:1-16).
Petitioner respectfully shows that BNSF, through its
Roadmaster Burwell, knew that Guerrero was called in
specially, that the storm forecast to be severe was later
forecast to worsen, that Guerrero had no other choice
than to drive his own auto over rural Route 34 known to
be notorious for blowing snow and dangerous in heavy
snow, and that Burwell had authority to prevent exposing
Guerrero to the dangerous snow covered road by bringing
him in earlier, or later, or by providing a hotel room. The
evidence shows, without contradiction, that after calling
Guerrero at 6:00 p.m., Burwell did nothing more; not even
to remain aware of the worsening storm conditions.
REASONS FOR ALLOWANCE OF THE PETITION
A. Certiorari Is Warranted Because The Decision
Of The Court Of Appeals Directly Conflicts With
Petitioner’s Seventh Amendment Right To Jury
Trial Provided By The Federal Employers’ Liability
Act And Settled Precedents From The Supreme
Court
Precedents from the U.S. Supreme Court uniformly
protect the important public interest that Congress

11
intended for the Federal Employer’s Liability Act, 45
U.S.C. sec. 51 et seq. to provide liberal recovery for
railroad workers injured in the scope of their employment,
imposing on the railroad the duty of paying damages when
injury is caused in whole or in part by the employer’s
fault. Kernan v. American Dredging Co., 355 U.S. 426,
432 (1958), citing Rogers v. Missouri Pacific Railroad Co.,
352 U.S. 500, 508-510 (1957). From the earliest decisions
in New York C.R. Co. v. Winfield, 244 U.S. 147 (1917) and
Erie Railroad Company v. Winfield, 244 U.S. 170 (1917),
this Court has emphasized that the carrier’s liability is
predicated on negligence; and that the railroad’s duty
increases as the risk increases, Bailey v. Central Vermont
Ry., Inc., 319 U.S. 350, 353 (1943); Urie v. Thompson, 337
U.S. 163, 179 (1949); and that reasonableness of the care
exercised is “in all cases” the deciding question “ . . . for
the jury to weigh and appraise in determining whether
respondent in furnishing Bailey with that particular place
in which to perform the task was negligent.” Bailey, supra,
319 U.S. at 353. Bailey teaches at length that:
“The debatable quality of that issue, the fact
that fair-minded men might reach different
conclusions, emphasized the appropriateness of
leaving the question to the jury. The jury is the
tribunal under our legal system to decide the
scope of that type of issue (citations omitted).
To withdraw such a question from the jury is
to usurp its functions.
The right to trial by jury is ‘a basic and
fundamental feature of our system of federal
jurisprudence.’ (citation omitted) It is part and
parcel of the remedy afforded railroad workers

12
under the Employers’ Liability Act. Reasonable
care and cause and effect are as elusive here
as in other fields. But the jury has been chosen
as the appropriate tribunal to apply those
standards to the facts of these personal injuries.
That method of determining the liability of the
carriers and of placing on them the cost of these
industrial accidents may be crude, archaic, and
expensive as compared with the more modern
systems of workmen’s compensation. But
however inefficient and backward it may be, it
is the system which Congress has provided. To
deprive these workers of the benefit of a jury
trial in close or doubtful cases is to take away a
goodly portion of the relief which Congress has
afforded them.” Bailey, supra, 319 U.S. at 354.
Neither Congress nor the courts have removed or
weakened the injured worker’s jury trial right, nor could
they since it is predicated on the Seventh Amendment.
Accord: Tennant v. Peoria & P.U. Ry. Co., 321 U.S. 29,
34-35 (1944) teaching it is not the function of a court to
search the record for conflicting evidence in order to take
the case from the jury; nor are courts free to reweigh
the evidence and set aside a jury verdict merely because
judges feel that other results are more reasonable. In
Blair v. Baltimore & O.R. Co., 323 U.S. 600, 602 (1945),
this Court taught that “Because important rights under
the Act were involved, we granted certiorari.” Again, in
Lavender v. Kurn, 327 U.S. 645, 652-653 (1946), this Court
stressed the Supreme Court of Missouri had no authority
to reverse a verdict in the claimant’s favor, teaching:
“Only when there is a complete absence of probative
facts to support the conclusion reached [by a jury] does

13
a reversible error appear. . . . And the appellate court’s
function is exhausted when that evidentiary basis becomes
apparent, it being immaterial that the court might draw a
contrary inference or feel that another conclusion is more
reasonable.”
The uniform march of this Court’s protection of the
right to jury trial in FELA cases was again emphasized in
Rogers v. Missouri Pacific R. Co., 352 U.S. 500, 509 (1957):
“Cognizant of the duty to effectuate the
intention of the Congress to secure the right
to a jury determination, this Court is vigilant
to exercise its power of review in any case
where it appears that the litigants have been
improperly deprived of that determination.
Some say that the Act has shortcomings
and would prefer a workmen’s compensation
scheme. The fact that Congress has not seen
fit to substitute that scheme cannot relieve this
Court of its obligation to effectuate the present
congressional intention by granting certiorari
to correct instances of improper administration
of the Act and to prevent its erosion by narrow
and niggardly construction.”
See also: Webb v. Illinois Central Railroad Co., 352 U.S.
512, 515-516 (1957), certiorari granted to consider whether
the Court of Appeals erred in reversing a finding that
the proofs were sufficient to show negligence; Sentilles
v. Inter-Caribbean Shipping Corp., 361 U.S. 107, 109110 (1959), certiorari granted to reverse an “improper
standard” used to review a jury finding based on medical
evidence.

14
Gallick v. Baltimore & Ohio Railroad Company, 372
U.S. 108, 113, 120 (1963) involved bilateral leg amputations
as a result of an insect bite from a fetid pool near the work
site. Though on the facts, the Court found that reasonable
minds could differ as to negligence and causation, the
Court reiterated that it is the role of the jury, not judges,
to weigh the evidence and draw the inferences and
conclusions which support the verdict. Foreseeability of
harm was described:
“It is widely held that for a defendant to be liable
for consequential damages he need not foresee
the particular consequences of his negligent
acts: assuming the existence of a threshold tort
against the person, then whatever damages
flow from it are recoverable. (citations omitted)
And we have no doubt that under a statute
where the tortfeasor is liable for death or
injuries in producing which his ‘negligence
played any part, even the slightest’ (Rogers v.
Missouri Pac. R. Co., (citation omitted), such
a tortfeasor must compensate his victim for
even the improbable or unexpectedly severe
consequences of his wrongful act.” Gallick,
supra, 372 U.S. at 120-121.
In Dennis v. Denver & Rio Grande Western Railroad Co.,
375 U.S. 208, 209 (1963), this Court reversed the decision
of the Supreme Court of Utah, to reinstate a jury verdict
in favor of a railroad worker who suffered loss of two
fingers because he was not provided adequate protection
from subzero temperatures while working outside. The
Court found:

15
“There can be little dispute that these facts, if
believed, establish negligence by respondent
railroad, since they show that the foreman,
who had full control over petitioner’s activities
while on this job, did not take all necessary and
reasonable precautions to prevent injury to
petitioner when put on notice of his condition.”
Last, in CSX Transportation, Inc. v. McBride, 564
U.S. 685, 699, 703-704 (2011), this Court affirmed the
7th Circuit jury instruction based on the FELA and
Rogers causation standard of “in whole or in part” rather
than a more traditional standard in negligence cases of
“proximate cause”, relying in part on the decades of use
of the instruction, without Congressional correction, and
use of the instruction by countless judges and juries.
The Court relied on Gallick to address the concept of
“[R]easonable foreseeability of harm” as an ingredient of
negligence. The basic meaning of the phrase is whether
the carrier “fai[l] to observe that degree of care which
people of ordinary prudence and sagacity would use under
the same or similar circumstances.” “Thus, ‘[i]f a person
has no reasonable ground to anticipate that a particular
condition . . . would or might result in a mishap and injury,
then the party is not required to do anything to correct
[the] condition.” So, in this Guerrero case at bar, the
question is whether such a prudent person, the reasonable
juror, under the severe storm conditions prevailing on
February 1, 2015, would or might anticipate a mishap
and injury if he/she personally went, or sent someone else
out, into the storm. How could they not? Indeed, the 7th
Circuit panel below explicitly relied on the fact that the
absence of other motorists on the highway that night, as
noted by Trooper Worsfold, implied that they elected to

16
protect themselves from mishap and injury by remaining
indoors, thereby distinguishing Guerrero from the general
population. (App. A, 8a). If the “general population”
perceived danger, and protected themselves from the
storm, a jury of those same persons could well find that
the proofs in this Record would justify with reason that
BNSF through its supervisor was negligent in his control
of Mr. Guerrero.
Petitioner respectfully contends that issuance of a
Writ of Certiorari is warranted because the history of
the FELA remedy enacted by Congress, as consistently
interpreted and enforced by this Court, demonstrates
that the 7th Circuit decision in this case directly conflicts
with Congressional intent and this Court’s precedents.
The facts supporting a finding of negligence by a
reasonable and prudent jury are undisputed: BNSF, by
its Roadmaster Burwell, knew full well that a severe
snowstorm would occur, and did develop overnight on
Saturday into Sunday. He knew he was bringing crew
members from home out into the storm. He knew those
crew members would have to travel on snow covered roads,
even through an area “notorious” for blowing and drifting
snow. He knew they would be using their own autos. And
he knew that he could protect them by altering the time
of arrival (before or after the intensity of the storm) or
even by providing safe hotel accommodations in Galesburg
close to the Yard worksite. Instead of taking reasonable
available measures to avoid subjecting Mr. Guerrero to
this hazard, Mr. Burwell did nothing after issuing the
Call, not even to “watch the snowfall.” A reasonable
and prudent jury could find that Roadmaster Burwell,
as in Dennis, was a foreman who had full control over
Guerrero’s activities, but did not take “all necessary and

17
reasonable precautions to prevent injury to [him] when
put on notice of [the conditions].”
Contrary to this Court’s repeated instruction that
in nearly all cases the questions of negligence and
causation in FELA cases must be submitted to a jury for
determination, the 7th Circuit panel substituted their own
value judgments to try to explain away the evidence which
supports a negligence finding. Thus, the panel infers that
petitioner would have the railroad clear the highway of
snow (App. A, 10a); but petitioner never suggested such.
The panel observes that the reason BNSF needed extra
help was due to “nothing but the snowstorm.” But the
storm was also the condition which imposed great hazard
on the railroad’s employee. The panel decries a finding of
negligence because Guerrero had to “drive while it was
still dark,” but no one ever suggested darkness alone
raised a finding of negligence. And the panel trivialized
BNSF’s control over its employee by casually observing
that “all that BNSF asked Guerrero to do was to come in
and help with the task of clearing snow from the tracks.”
(App. A, 13a). A jury, of course, can equally evaluate these
contentions, but could decide to the contrary, that what
BNSF did was to send its employee into a known highly
dangerous condition, which was totally unnecessary
considering the very simple alternative provisions BNSF
could have provided for him. Whether the panel’s concerns
would be persuasive to a jury should be tested in that
forum; but on the Record in this case, they cannot be
determinative as a matter of law.
Certiorari should be granted to abate the direct
conflict between the instant Opinion and this Court’s
precedents, so to vindicate petitioner’s important Seventh
Amendment right to a jury trial by vacating the decision
below and remanding for jury trial.

18
B. Certiorari Is Also Warranted In Order To Prevent
Erosion Of The Settled Right To Jury Trial In
FELA Cases By The Opinion Below Which Alters
The Liberal Standard For Entrusting Questions Of
Fact As To Negligence To The Jury, And Restricting
Such Decisions From The Court
Certiorari is also warranted to prevent the instant
Opinion from becoming the basis by which railroads and
courts erode the remedial and humane benefits of the
Federal Employer’s Liability Act. The 7th Circuit panel
decision cites but one case, Consolidated Rail Corporation
v. Gottshall, 512 U.S. 532 (1994) for the correct proposition
that the FELA is not a worker’s compensation statute.
But Gottshall reaffirms the liberal standards that apply
in FELA cases, and was primarily a decision defining the
elements to be recognized in federal courts for finding
intentional infliction of emotional distress. Gottshall does
not, in any way, mitigate the long history of decisions
recognizing and implementing the liberal remedy afforded
by the FELA.
The 7th Circuit Opinion notes that Mr. Guerrero had
“some discretion” in how he carried out this overtime
assignment; but expressly disclaims that he was “at fault
for the accident.” (App. A, 13a). Quite so, because even if
Mr. Guerrero had been negligent to some degree, such
comparative fault would be limited to consideration by a
jury for reduction of damages. Dennis v. Denver & Rio
Grande Western Railroad Co., 375 U.S. 208, 210 (1963). 2
2. The panel’s reference that Mr. Guerrero had “some
discretion” and came to work “under conditions known to both
of them” (App. A, 13a) implies an element of assumption of risk,
which has since 1939 been rejected by Congress as a defense in
FELA cases. 45 U.S.C. sec. 54.

19
Absent applicable relevant case law to support the 7th
Circuit panel’s decision, it appears that the primary basis
for the decision is that the panel simply did not think the
conditions to which Guerrero was exposed implicated any
responsibility by Burwell to take remedial measures; i.e.
“the duty to keep snowy state highways plowed and safe.”
(App. A, 10a). Of course, plaintiff had never suggested that
BNSF had any obligation or ability to plow the highway.
Rather, plaintiff’s contention was much less of a
burden on BNSF; namely to refrain from exposing Mr.
Guerrero to the known hazard of this severe storm. As
this Court has held long ago, the non-delegable duty of the
railroad is to provide for a reasonably safe place to work,
even if on the premises of another. Shenker v. Baltimore &
Ohio R.R. Co., 374 U.S. 1 (1963). In practice, liability under
the FELA has been imposed when the worker was sent to
a dangerous place, over which the railroad had no ability
to remedy the condition of the premises, based on the fact
that the railroad subjected the worker to the hazard. See,
e.g.: Duffield v. Marra, Inc., 166 Ill.App.3d 754 (5th Dist.
1988), a privately owned snow covered parking lot; Howes
v. Baker, 16 Ill.App.3d 39 (1st Dist. 1973), snow, ice and
debris covered premises of a customer; Yarde v. Hines,
238 S.W. 151 (Mo. App. 1922), a restaurant for breakfast;
Payne v. CSX Transportation, Inc., 467 S.W.3d 413 (Tenn.
2015), a customer facility with carcinogenic contaminants;
Mills v. CSX Transportation, Inc., 300 S.W.3d 627 (Tenn.
2009), an off-site defective stairwell at a training facility;
Empey v. Grand Trunk Western R. Co., 869 F.2d 293 (6th
Cir. 1989), an off-duty motor lodge with a defective shower
enclosure.
The panel grants that Burwell could have taken any
one of several precautionary measures available to him,
but characterizes them as “going the extra mile” which,

20
in the opinion of the panel “does not demonstrate that
BNSF was negligent because Burwell did not do so.” (App.
A, 11a). But this is nothing more than a value judgment
which applies the wrong standard. As the Court teaches
in Urie v. Thompson, 337 U.S. 163, 181-182 (1949):
“To read into this all-inclusive wording a
restriction as to the kinds of employees covered,
the degrees of negligence required, or the
particular sorts of harms included, would be
contradictory to the wording, the remedial and
humanitarian purpose, and the constant and
established course of liberal construction of the
Act followed by this Court. (emphasis added).
See: Pehowic v. Erie Lackawanna Railroad Company, 430
F.2d 697, 699-700 (3rd Cir. 1970), citing Sinkler v. Missouri
Pacific R. Co., 356 U.S. 326, 329 (1958), Kernan, supra,
and Rogers, supra, reciting:
“ . . . a trial court is justified in withdrawing
such issues from the jury’s consideration only in
those extremely rare instances where there is a
zero probability either of employer negligence
or that any such negligence contributed to the
injury of an employee.” 3
The many Supreme Court authorities cited above plainly
hold that the decision of which measures, if any, should
be taken to protect the worker resides with the jury of
reasonable and prudent persons, not with the Court.
3. The court observed at its footnote 2 that the Supreme
Court has made it abundantly clear that it will summarily reverse
when this standard has not been applied.

21
If left to stand, the 7th Circuit Opinion in this Guerrero
case is highly likely to be cited for a proposition that
railroads may contend, and courts may decide, to substitute
their own conceptions of what facts are important, or
trivial, and to render decisions which the FELA and this
Court’s precedents hold must be left for a jury to decide.
If so, railroads will assert, and courts may be persuaded
to adopt, a new standard in FELA cases; that even when
evidence shows actual knowledge of a hazardous condition
into which the employer sent the worker, the court rather
than a jury could negate the “reasonable prudence”
required of the employer, thereby depriving the employee
of the right to jury trial which Congress has enacted.
Gallick v. Baltimore & Ohio Railroad Company, 372 U.S.
108, 114-115 (1963), citing Tennant v. Peoria & P.U.R. Co.,
321 U.S. 29, 35 (1944) teaches:
“It is not the function of a court to search the
record for conflicting circumstantial evidence
in order to take the case away from the jury on
a theory that the proof gives equal support to
inconsistent and uncertain inferences. The focal
point of judicial review is the reasonableness of
the particular inference or conclusion drawn by
the jury. It is the jury, not the court, which is
the fact-finding body.
...
Courts are not free to reweigh the evidence
and set aside the jury verdict merely because
the jury could have drawn different inferences
or conclusions or because judges feel that other
results are more reasonable. (emphasis added).

22
This Court has never wavered from enforcing the
liberal standards of the FELA, which effectuate
Congress’ “humanitarian” and “remedial” goals. CSX
Transportation, Inc. v. McBride, 564 U.S. 685, 691-692
(2011). Now is not the time, and this is not the case,
to eviscerate the Federal Employers’ Liability Act
protections for railroad workers.
Petitioner respectfully requests that the Court grant
Certiorari to prevent erosion of the settled standard for
FELA cases which the instant Guerrero Opinion will
likely foster.
CONCLUSION
For the foregoing reasons, petitioner, Rita Guerrero,
respectfully requests that this Court grant her Petition
For Writ of Certiorari to provide plenary review of the
decision of the Seventh Circuit Court of Appeals, and to
reverse that decision to remand for jury trial, in order to
effectuate the remedial and humanitarian provisions of
the Federal Employers’ Liability Act.
Respectfully submitted,
Robert B. Patterson
Counsel of Record
Law Offices of Robert B. Patterson, Ltd.
One East Wacker Drive, Suite 2020
Chicago, IL 60601
(312) 329-9400
rbpltd@sbcglobal.net
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED July 17, 2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-1187
RITA GUERRERO, INDIVIDUALLY AND
AS THE SPECIAL ADMINISTRATOR OF THE
ESTATE OF CELSO N. GUERRERO,
Plaintiff-Appellant,
v.
BNSF RAILWAY COMPANY,
Defendant-Appellee.
Appeal from the United States District Court
for the Central District of Illinois.
No. 1:17-cv-01044-MMM-JEH — Michael M. Mihm, Judge.
May 28, 2019, Argued
July 17, 2019, Decided
Before Wood, Chief Judge, and Bauer and Easterbrook,
Circuit Judges.

2a
Appendix A
Wood, Chief Judge. Behind the legal question we
must resolve in this case is a sad story: as Celso Guerrero
was trying to drive to his job at BNSF Railway through
a snowstorm early one morning, his car skidded, it
collided with a snowplow, and he was killed. His widow,
Rita Guerrero, who appears on her own behalf and as
administrator of her late husband’s estate, is seeking
compensator y money damages from BNSF. (Our
references in this opinion to Guerrero refer to Celso
Guerrero, unless the context requires otherwise.) The
district court concluded that Guerrero was not acting
within the scope of his employment when the fatal accident
occurred, and thus the Federal Employer’s Liability
Act (FELA) does not apply to the case. In our view, the
question of work status is a close one, but it is one that
we need not resolve. No jury could find that BNSF was
negligent in any action it took or failed to take with respect
to Guerrero, and so on that ground we affirm the district
court’s judgment.
I
We take our account of the undisputed facts from the
district court’s opinion, recognizing that this case was
resolved through a motion for summary judgment, and
so (as the district court also did), we accept the facts in
the light most favorable to the opponent of the motion,
Guerrero.
Celso Guerrero was a machine operator for BNSF.
His normal schedule required him to work from Monday
through Friday, but he was subject to possible overtime

3a
Appendix A
work at other times. His primary duty was track repair,
but he was also expected to perform other tasks as
needed, including snow removal. On Saturday, January
31, 2015, Guerrero received a telephone call around
6:00 p.m. from Nick Burwell, the BNSF Roadmaster in
charge of track maintenance for the Galesburg, Illinois,
railyard and surrounding area. Burwell told Guerrero
that a significant snowstorm was expected, and so he
was looking for employees to clear snow from the tracks
starting the next morning at 7:00 a.m. at the Galesburg
facility. In making these calls, Burwell followed a union
seniority list. Guerrero was not required to accept this
work opportunity, but he did. From that point onward, we
can assume that BNSF was relying on him to show up at
the assigned time, and he at a minimum would have had
to notify the company if he no longer wanted to accept
the extra work.
Driving his personal vehicle, Guerrero left his home in
Kewanee, Illinois (about 40 miles northeast of Galesburg)
at 5:00 a.m. on February 1. The predicted snowstorm was
underway, and it was snowing hard as Guerrero drove
along Illinois Route 34. The National Weather Service
documented at least four, but likely closer to eight,
inches of snow cover along his route. Interactive Snow
Information, Modeled Snow Depth for 2015 February 1,
12:00 UTC, The National Weather Service’s National
O per ationa l H y dr au lic R emo t e S ensing C en t er ,
https://www.nohrsc.noaa.gov/interactive/html/map.html
(Physical Element “Snow Depth”; Date “February 1, 2015,
12:00 UTC”; City, ST “Galesburg, IL”). While heading
southbound, near Oneida, his car slid on the roadway, spun

4a
Appendix A
across the median, and collided with a snowplow being
operated by the Illinois Department of Transportation
(IDOT); the plow was in the northbound lane. Guerrero
was severely injured and died the next day in the hospital.
Illinois State Trooper Carrie Worsfold responded to the
collision. Commenting that “I was the plow, it felt like,”
she recalled that the road was completely covered with
snow—maybe three inches or more.
II
Rita Guerrero, suing in her own right and for
Guerrero’s Estate, filed this action under the FELA, 45
U.S.C. §§ 51-59. Asserting that her husband was killed
while he was on duty and acting within the scope of his
employment, she sought compensatory damages. BNSF
took issue with her assertion that Guerrero was on
duty at the time of his injury; it contended that he was
merely commuting to work, as he did for his normal shift
every day, and that commuting falls outside the scope
of employment in this situation. BNSF argued in the
alternative that no trier of fact could find that BNSF was
negligent either by act or omission, and that this was an
independent reason for judgment in its favor. On BNSF’s
motion for summary judgment, the district court ruled
that Guerrero’s fatal injury occurred at a time when
he was not acting within the scope of his employment.
The FELA thus did not apply—a conclusion to which
the judge attached jurisdictional significance. Without
addressing BNSF’s negligence argument, the judge
granted summary judgment in BNSF’s favor, presumably
with prejudice, since the judgment document does not

5a
Appendix A
specify otherwise and makes no mention of a jurisdictional
ground for dismissal. See Fed. R. Civ. P. 41(b); Swanigan
v. City of Chicago, 775 F.3d 953, 959 n.2 (7th Cir. 2015).
Guerrero has appealed.
III
Although the parties spend most of their time
arguing over the district court’s finding about scope of
employment, we have much less to say about that, and
more to say about BNSF’s alternate, negligence-based
argument. The reason is simple: it appears to us that
there are disputed issues of material fact on the former
point that would preclude summary judgment, but there
are no such issues on the latter point.
A
Before turning to the merits, we need to say a word
about jurisdiction. Citing Caillouette v. Balt. & Ohio
Chicago Terminal R. Co., 705 F.2d 243, 245-46 (7th Cir.
1983), the district court held that the answer to the question
whether the FELA covers Guerrero’s claims—here, the
answer to the question whether Guerrero was within the
scope of his employment when the accident occurred—
“implicates the Court’s subject matter jurisdiction.” It
is true that the Caillouette court’s discussion of FELA
coverage appears in a section headed “Subject Matter
Jurisdiction.” But saying so does not make it so. All the
court actually held in Caillouette was that the injured
rail worker was indeed acting within the scope of his
employment when he walked across a rail yard, and it
affirmed a jury verdict in the worker’s favor.

6a
Appendix A
Quite a bit of water has gone under the bridge
since 1983, when Caillouette characterized a question
relating to the scope of coverage under a statute as one
affecting the district court’s subject-matter jurisdiction.
In Arbaugh v. Y & H Corp., 546 U.S. 500, 126 S. Ct. 1235,
163 L. Ed. 2d 1097 (2006), the Supreme Court endeavored
to clarify the difference between “federal-court ‘subjectmatter’ jurisdiction over a controversy; and the essential
ingredients of a federal claim for relief.” Id. at 503. In that
case, it held that the provision in Title VII of the Civil
Rights Act limiting its coverage to employers having 15 or
more employees does not affect subject-matter jurisdiction.
Instead, it simply “delineates a substantive ingredient of
a Title VII claim for relief.” Id. Later decisions from
the Supreme Court have made clear that this was not a
mere quirk of Title VII law. Over and over, the Court has
stressed the difference between the fundamental power to
adjudicate a claim (i.e. something affecting subject-matter
jurisdiction) and lesser restrictions, including claimprocessing rules and ingredients of a claim. See, e.g., Fort
Bend Cnty., Texas v. Davis, 139 S. Ct. 1843, 204 L. Ed.
2d 116 (2019) (administrative charge-filing requirement
under Title VII is a mandatory, but non-jurisdictional,
prerequisite to suit); Morrison v. Nat’l Austl. Bank Ltd.,
561 U.S. 247, 130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010)
(extent of extraterritorial reach of securities statute
relates to scope of statute, not subject-matter jurisdiction);
Reed Elsevier, Inc. v. Muchnick, 559 U.S. 154, 130 S. Ct.
1237, 176 L. Ed. 2d 18 (2010) (Copyright Act’s registration
requirement is precondition to suit, but does not affect
subject-matter jurisdiction).

7a
Appendix A
The import of those cases is unmistakable: unless
Congress has unambiguously said in a statute that a
particular limitation affects the district court’s subjectmatter jurisdiction, a limitation on the right to recover
(such as number of employees, or extraterritorial reach,
or scope of employment) describes an element of the
case. Nothing in the FELA compels the conclusion that
the merits of a claim and subject-matter jurisdiction are
conflated for its purposes. The question before us is thus
only whether Guerrero has alleged enough to survive
summary judgment on the scope-of-employment issue.
BNSF properly preserved this point in the district court,
and so the fact that it would be too late now to inject that
issue into the case is of no moment.
B
The federal reporters are littered w ith cases
examining whether the FELA applies to an employee
injured while he or she is commuting to or from work.
Often the answer is no: courts generally hold that the
employee is on her own during the commute and does
not report to work until she has reached her place of
employment. Some cases, however, slip into a gray area.
For example, employment status is often contested where
a commuter is injured while traveling to or from work on
the same railway that employs her, using a pass issued by
the employer. Nonetheless, those cases usually find that
the travel is outside the scope of employment. We have
noted that those commuters “are excluded from [FELA]
coverage for two reasons—they are not required to
commute on their employer’s trains, and while commuting,

8a
Appendix A
they are in no greater danger than any other member of
the commuting public.” Caillouette, 705 F.2d at 246 (citing
Sassaman v. Pennsylvania R., 144 F.2d 950, 953 (3d Cir.
1944)); Metropolitan Coal Co. v. Johnson, 265 F.2d 173,
178 (1st Cir. 1959). A second group of borderline cases
includes those in which an employee has just clocked out,
or not yet clocked in, but is traversing the work site on
her way to or from her assigned post when she is injured.
Those cases typically uphold FELA coverage, because
“traversing the work site ... is a necessary incident of the
day’s work.” Id. (citing Erie Railroad Co. v. Winfield, 244
U.S. 170, 173, 37 S. Ct. 556, 61 L. Ed. 1057 (1917). Relying
on the former line of cases, the district court found that
Guerrero’s accident occurred while he was on his way
to work, far from his worksite, as he drove his personal
vehicle on a public highway and faced dangers identical
to the rest of the commuting public.
But the situation is more complex than that. With
respect to the last point, evidence in the record (for
example, Trooper Worsfold’s testimony that she was
“the plow,” implying that she was the first to drive on
the newly fallen snow) indicated that members of the
commuting public were not out and about—they were
waiting out the storm until IDOT could clear the roads and
render them passable. Guerrero’s commitment to BNSF
thus distinguished him from the general population.
In addition, Guerrero was not heading to work for his
normal job, which as we noted ran from Monday through
Friday. He had accepted a special assignment, and once
he accepted it, BNSF was relying on him to show up.
Guerrero notes that the union contract to which he was

9a
Appendix A
subject provides that “the time of an employee who is
called after release from duty to report for work will begin
at the time called and will end at the time he returns to
designated point at headquarters.” (Emphasis added.)
Burwell called Guerrero at 6:00 p.m. on January 31 and
obtained Guerrero’s agreement to be at the Galesburg
facility by 7:00 a.m. the next morning. Recognizing the
adverse conditions caused by the snow, Guerrero budgeted
a full two hours to drive the 40 miles between his home and
the railyard. In addition, the record shows that Burwell
later approved a settlement for Guerrero’s wages from the
6:00 p.m. telephone call until the planned time of arrival
the next morning. Although BNSF insists that Burwell
erred in doing so, a jury would not be required to accept
that explanation. Taking that fact favorably to Guerrero,
it is evidence that he was not commuting, but instead was
“on the clock” and working on the special assignment at
the time of the crash.
We set forth these competing views of the record to
show why the question of scope of employment is not a
straightforward one. It is a question of fact for the jury
in an FELA case. See Wilson v. Chicago, Milwaukee,
St. Paul, and Pac. R.R. Co., 841 F.2d 1347, 1353-54 (7th
Cir. 1988). Rather than wrestle it to the ground to see
if summary judgment was nonetheless correct on this
ground, we prefer to move to BNSF’s alternate argument:
whether a trier of fact could find that it was negligent,
even under the generous FELA standard, on this record.

10a
Appendix A
C
Because the district court did not reach the negligence
argument, Guerrero understandably said nothing about
it in his opening brief. But BNSF properly raised the
issue before the district court, and it followed up in its
responsive brief in this court. Guerrero then had an
opportunity to address negligence in his reply brief. We
may affirm on any ground supported by the record, see
Isby v. Brown, 856 F.3d 508, 529 (7th Cir. 2017), and so
this argument is properly before us.
Guerrero argues that there is ample evidence that
would support a jury finding of negligence, and so we
begin with his examples. He asserts that BNSF had a
non-delegable duty to provide a reasonably safe place to
work, and that this duty extended to “places remote from
railroad premises.” Reply Br. at 8. But the cases to which
he refers for that proposition do not go so far as to impose
on BNSF the duty to keep snowy state highways plowed
and safe. Instead, they cover private places specifically
known to, if not chosen by, the employer such as snowcovered employee motel parking lots (Duffield v. Marra,
Inc., 166 Ill. App. 3d 754, 520 N.E.2d 938, 117 Ill. Dec.
587 (1988)), snow-, ice-, and debris-covered premises of a
customer (Howes v. Baker, 16 Ill. App. 3d 39, 305 N.E.2d
689 (1973)), and an off-site defective stairwell at a training
facility (Mills v. CSX Transp., Inc., 300 S.W. 3d 627 (Tenn.
2009). Guerrero also suggests that BNSF was negligent
when, acting through Burwell, it asked Guerrero to show
up at 7:00 a.m. the morning after a bad storm. Burwell, he
contends, should have paid more attention to the weather

11a
Appendix A
forecast, or he should have had Guerrero show up at 10:00
p.m. the night before and given him a hotel room, or he
should have cancelled the work request in the middle of
the night when it turned out that the storm was as severe
as it was.
We grant that Burwell could have gone the extra mile
and taken one or more of those steps, but that fact does not
demonstrate that BNSF was negligent when Burwell did
not do so. As BNSF points out in its brief, Kewanee and
Galesburg are in the upper Midwest, where snow is hardly
an unusual phenomenon. (One estimate shows an average
annual snowfall for Galesburg of 23 inches. See Climate
Galesburg — Illinois, U.S. Climate Data, https://www.
usclimatedata.com/climate/galesburg/illinois/unitedstates/usil0439 (last visited July 12, 2019).) Guerrero
had lived in Kewanee for more than 35 years, and so it is
impossible that he was a novice driving in snow. BNSF
did not instruct him when to leave his house to start the
drive to Galesburg. Even assuming, as we have, that he
was “on the clock” from the time of Burwell’s call, he had
some discretion in deciding how to carry out his promise
to show up at the railyard.
Note in this connection that we are not relying on the
voluntary nature of Guerrero’s initial decision to accept
the assignment. From the time he said “yes” forward,
we can assume that he was obliged to show up. But we
cannot ignore the fact that the reason Burwell needed
the extra help was the snowstorm, and nothing but the
snowstorm. Nor can we ignore the fact that BNSF had
no control over IDOT’s efforts to plow the roads. In fact,

12a
Appendix A
Trooper Worsfold’s testimony, estimating that the road
was covered by about three inches of snow as she was
driving to reach the accident site, might suggest that the
roads had been plowed, even if new snow had already
started accumulating.
A decision that BNSF was negligent merely by asking
Guerrero to drive while it was still dark (as it would have
been on January 31 to February 1 between 6:00 p.m. and
7:00 a.m., since sunset was about 5:15 p.m. and sunrise
about 7:10 a.m., see Sunrise & Sunset for Galesburg,
IL, Old Farmer’s A lmanac, https://www.almanac.com/
astronomy/sun-rise-and-set/IL/Galesburg/2015-02-01#
(last visited July 12, 2019)) would have far-reaching
implications. Taken to the extreme, it would mean that
employers in snowy (or rainy, or icy) regions would be
negligent whenever they required their employees to
drive in bad weather. Even under the liberal negligence
standards that apply in FELA cases, Consol. Rail Corp.
v. Gottshall, 512 U.S. 532, 543, 114 S. Ct. 2396, 129 L. Ed.
2d 427 (1994), that is too much. As the Supreme Court
itself recognized in Gottshall:
“[t]hat FELA is to be liberally construed,
however, does not mean that it is a workers’
compensation statute. We have insisted that
FELA does not make the employer the insurer
of the safety of his employees while they are on
duty. The basis of his liability is his negligence,
not the fact that injuries occur.
Id. (quotations and citations omitted).

13a
Appendix A
In the end, all that BNSF asked Guerrero to do was to
come in and help out with the task of clearing snow from
the tracks. Its failure, if one can call it that, to micromanage exactly when Guerrero left his house, which route
he took from Kewanee to Galesburg, and how he handled
his car in the snow, cannot be characterized as negligence.
Even in the railyard (that is, on the employer’s premises
and at the place of employment), workers have some
discretion in how they carry out their jobs. So too here.
No one doubts that Mrs. Guerrero suffered a terrible
personal loss when her husband lost his life as he tried
to get to work. And no one here is saying that Guerrero
was at fault for the accident. It may have been caused by
a sudden gust of wind, or a patch of black ice that was
invisible under the snow, or any of a number of other
external factors. But by the same token, this record shows
that the only action BNSF took was to ask Guerrero to
come to work under conditions known to both of them. We
cannot pin a finding of negligence on such a slender reed.
The judgment of the district court granting summary
judgment in favor of BNSF is AFFIRMED.

14a
B the united
Appendix B —Appendix
ORDER of
states DISTRICT COURT FOR THE Central
DISTRICT OF ILLINOIS, PEORIA DIVISION,
DATED JANUARY 3, 2019
Case No. 1:17-cv-01044-MMM-JEH
IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
RlTA GUERRERO, Individually and as
the Special Administrator of the
Estate of CELSO N. GUERRERO,
Plaintiff,
v.
BNSF RAILWAY COMPANY,
Defendant.
ORDER
Before the Court are the Defendant, BNSF Railway
Company’s (“BNSF’’), Motion for Summary Judgment
(D. 26),1 the Plaintiff, Rita Guerrero’s, Response (D. 28),
and the Defendant’s Reply (D. 30). For the reasons stated,
infra, the Defendant’s Motion for Summary Judgment is
GRANTED and this matter is terminated.
“D.

1. Citations to the Docket in this case are abbreviated as
.”

15a
Appendix B
BACKGROUND
The Plaintiff’s deceased husband, Celso Guerrero,
passed away on February 2, 2015, after sustaining
injuries in a car accident the day before. At the time of
the accident, he was on his way to report to work for the
Defendant. The Plaintiff, individually and as the special
administrator of Celso’s estate, alleges the Defendant
failed to provide Celso with safe working conditions at
the time of his death. She asserts that he was on duty at
the time he was injured and his death is therefore covered
and protected by provisions of the Federal Employer’s
Liability Act (“FELA”), 45 U.S.C. §§ 51-59. (D. 1 at pg. 2).
According to the Plaintiff, Celso was “instructed”
to report to work on the morning of February 1, 2015,
while there was a “severe snow storm” covering the
area of his route from his home in Kewanee, Illinois to
a BNSF facility in Galesburg, Illinois. Id. She further
alleges Celso was in “under pay” status at the time of the
accident, pursuant to a collective bargaining agreement
between Celso’s union and the Defendant, and therefore,
was on duty and engaged in the performance of work for
the Defendant. Id. at pg. 3. The Plaintiff claims she is
entitled to the cost of this suit, $75,000 dollars, along with
“exclusive of interest and costs” for “the damages, losses
and injuries which she has sustained[.]” Id. at pg. 5.
The Defendant insists it is entitled to summary
judgment because: (1) Celso was not in the course and
scope of his employment at the time of his accident (D. 26
at pp. 10-18) and (2) there is no evidence to support a claim

16a
Appendix B
that BNSF was negligent. Id. at pp. 18-20. The Defendant
also claims that it is entitled to summary judgment to the
extent that the Plaintiff claims she is entitled to damages
for loss of society, support, services, companionship,
and consortium from the decedent. Id. at pp. 20-22. The
Plaintiff concedes the Defendant’s argument on this last
point and limits her damages claim to pecuniary loss. (D.
28 at pg. 28). Accordingly, the Court need only address
the Defendant’s first two arguments.
The undisputed facts demonstrate the following:
Celso was employed as a machine operator for BNSF.
His scheduled work week was Monday through Friday.
While Celso’s work duties mainly consisted of track
repair, he would occasionally perform other tasks, such as
clearing snow, as needed. Nick Burwell, a BNSF employee
in charge of track maintenance, called Celso at home on
Saturday, January 31, 2015, at approximately 6:00 PM and
offered him a chance to work overtime. Burwell needed
BNSF employees to clear snow from tracks the next day
at 7:00 AM at the Galesburg facility. The overtime was
offered to Celso on the basis of his seniority in a union
and he could have declined to take it. Celso accepted
Burwell’s offer.
At approximately 5:00 AM on February 1, 2015, Celso
left his home in Kewanee in his personal vehicle. There
had been substantial snow fall in the region the night
before and into the morning. It continued to snow in the
area along his route to Galesburg. Celso lost control of his
vehicle in the snow at approximately 5:30 AM. His vehicle

17a
Appendix B
drifted out of its lane and collided with another vehicle—
an Illinois Department of Transportation snowplow. The
accident site was approximately 17 miles from BNSF’s
Galesburg facility. 2 Unfortunately, Celso died the next
day as a result of his injuries.
Celso’s union and BNSF have a collective bargaining
agreement in place titled “BNSF Agreement between the
Burlington Northern and Santa Fe Railway Company
and its Employees represented by the Brotherhood of
Maintenance of Way Employees” (“CBA”). (D. 26 at pg.
8); (D. 28 at pg. 4). Rule 30(C) of the CBA states:
The time of an employee who is notified prior to
release from duty to report for work will begin
at the time required to report and end when
released. The time of an employee who is called
after release from duty to report for work will
begin at the time called and will end at the time
he returns to designated point at headquarters.
(D. 26-9 at pg. 2). The latter scenario described in Rule
30(C), when an employee is offered the opportunity to
work overtime while they are not on duty, starts the
clock on what is commonly known as “under pay’’ status.
Burwell later approved a “settlement claim statement” for
Celso’s wages from the time he agreed to work overtime
on Saturday, January 31, 2015, at 6:00 PM to Sunday,
February 1, 2015, at 6:00 AM.
2. The Court takes judicial notice of this fact since it “can be
accurately and readily determined from sources whose accuracy
cannot reasonably be questioned.” Fed. R. Evid. 201(b)(2)

18a
Appendix B
LEGAL STANDARD
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v. Catrett,
477 U.S. 317, 322-23 (1986). The Court reviews the facts in
a light most favorable to the non-movants, in this instance,
the Plaintiff. Vodak v. City of Chicago, 639 F.3d 738, 740
(7th Cir. 2011). The moving party—here, the Defendant—
has the burden of providing proper documentary evidence
to show the absence of a genuine issue of material fact.
Celotex Corp., 477 U.S. at 323-24. Once the moving party
has met its burden, the opposing party must come forward
with specific evidence, not mere allegations or denials of
the pleadings, which demonstrates that there is a genuine
issue for trial. Gracia v. Volvo Europa Truck, NV., 112
F.3d 291, 294 (7th Cir. 1997).
The non-movant cannot rest on the pleadings alone,
but must designate specific facts in affidavits, depositions,
answers to interrogatories or admissions that establish
that there is a genuine triable issue; they “must do more
than simply show that there is some metaphysical doubt
as to the material fact.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 256-57 (1986) (quoting Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986));
Hot Wax, Inc. v. Turtle Wax, Inc., 191 F.3d 813, 818 (7th
Cir. 1999). Undeveloped and unsupported arguments are
waived. Clay v. Holy Cross Hosp., 253 F.3d 1000, 1002 n.1
(7th Cir. 2001). Finally, a scintilla of evidence in support of
the non-movant’s position is not sufficient to successfully

19a
Appendix B
oppose a summary judgment motion; “there must be
evidence on which the jury could reasonably find for the
[non-movant].” Anderson, 477 U.S. at 250.
ANALYSIS
First, the Defendant argues that it is entitled to
summary judgment because Celso was not in the course
and scope of his employment at the time of his accident.
(D. 26 at pp. 10-18). The Plaintiff asserts that Celso’s
under pay status at the time of his accident places him
within the scope of his employment. (D. 28 at pp. 16-20).
She further claims Celso was not commuting at the time
of his accident. Id. at pp. 20-24.
FELA provides the exclusive remedy for railroad
employees that are injured or die in the course and scope
of their employment. It provides that common carriers by
railroad, such as BNSF, engaging in commerce:
shall be liable in damages to any person
suffering injury while he is employed by such
carrier in such commerce, or in case of the
death of such employee, to his or her personal
representative, for the benefit of the surviving
widow or husband and children of such employee
... for such injury or death resulting in whole
or in part from the negligence of any of the
officers, agents, or employees of such carrier [.]
Any employee of a carrier, any part of whose
duties as such employee shall be the furtherance

20a
Appendix B
of interstate or foreign commerce; or shall, in
any way directly or closely and substantially,
affect such commerce as above set forth shall,
for the purposes of this chapter, be considered
as being employed by such carrier in such
commerce and shall be considered as entitled
to the benefits of this chapter.
45 U.S.C. § 51. Whether FELA covers the Plaintiff’s
claims turns on whether Celso was within the scope of
his employment when his accident occurred. For purposes
of FELA, an employee is within the scope of their
employment when they are engaged in acts incidental
to their employment. Rogers v. Chicago & NW Trans.
Co., 947 F. 2d 837, 838-39 (7th Cir. 1991). The answer
to this question implicates the Court’s subject matter
jurisdiction. Caillouette v. Balt. & Ohio Chicago Terminal
R. Co., 705 F. 2d 243, 245-46 (7th Cir. 1983).
The Seventh Circuit distinguishes commuter cases—
those where an employee is injured while commuting
to or from work—from traversing cases—those where
an employee is injured on the employer’s premises,
traversing a worksite on their way to or from work. Id. at
246. Generally, commuters are not covered by FELA. See
Thompson v. National R.R. Passenger Corp., 966 F. 2d
1457 (7th Cir. 1992) (citing Quirk v. New York, C & St. L.
R. Co., 189 F. 2d 97 (7th Cir. 1951)). Determining whether
a case involves a commuter or someone traversing turns
primarily on (1) whether the employee is on the worksite,
exposed to risks not experienced by the general public, and
(2) whether the employee is within reasonable proximity

21a
Appendix B
to work in terms of time and space. Schneider v. National
Railroad Passenger Corp., 854 F. 2d 14, 17 (2d Cir. 1988).
“The locus of the injury is critical to determining whether
an employee is within the scope of employment, because
the policy behind FELA is to protect railway workers from
the dangers associated with railway work, not the risks of
commuting to which all passengers are exposed.” Ponce
v. Northeast Illinois Regional Commuter R.R. Corp., 103
F. Supp. 2d 1051, 1058 (ND. Ill. 2000) (citing Caillouette
705 F. 2d at 246) (emphasis added).
Celso’s accident occurred on his way to work,
approximately 17 miles from the Galesburg facility, an
hour and a half before his overtime shift was scheduled
to begin. He was on a public highway and driving his
personal vehicle. The dangers he faced at that time were
identical to those faced by the rest of the commuting
public. Celso volunteered to work an extra shift. The
Plaintiff admits that he could have declined the work. As
such, the commuter rule applies to this case.
In Caillouette, the Seventh Circuit found “commuter
cases” were not covered by FELA, in part, because
commuters “are in no greater danger than any other
member of the commuting public.” Caillouette 705 F. 2d
at 246. This denial of FELA coverage holds up even for
employees commuting on their employer’s trains. Id. at
245 (citing examples from multiple Circuits); Ponce, 103 F.
Supp. 2d at 1057 (same). The undisputed facts demonstrate
that, as a matter of law, Celso was commuting. Therefore,
FELA does not apply and this Court lacks subject matter
jurisdiction over this matter.

22a
Appendix B
Given the record before the Court, the Plaintiff cannot
establish subject matter jurisdiction. The only reasonable
inference to be drawn from the undisputed facts is that
Celso was commuting to work at the time of his accident.
As a result, the Plaintiff’s claim is not properly before
this Court.
The Plaintiff argues Celso’ s status in under pay
makes the commuter rule inapposite. (D. 28 at pg. 17).
The Defendant disputes that status. (D. 30 at pp. 15-16).
Regardless of who is correct on this point, the issue is
not dispositive. See Parker v. Long Island R.R., 425 F.
2d 1013, 1015 (2d Cir. 1970) (noting that if an employee is
compensated for time spent traveling home, that fact is one
factor that may be considered in the scope of employment
analysis).
Even assuming Celso was in under pay status,
the Plaintiff points to no authority—and the Court is
unaware of any—suggesting that the CBA at issue here
should take precedence over the federal judiciary’s wellestablished interpretation of FELA which resulted in
the commuter rule. The Court is required to apply the
common law principles determined by federal courts in
deciding whether Celso was acting within the scope of his
employment. Wilson v. Chicago, Milwaukee, St. Paul, &
Pacific R. Co., 841 F. 2d 1347, 1352 (7th Cir. 1988). The
Plaintiff’s arguments to the contrary (D. 28 at pp. 16-18)
are unavailing. Moreover, although in her pleadings she
consistently characterizes Celso’s decision to work on
Sunday, February 1, 2015 as something he was coerced
into doing (e.g. D. 1 at pg. 2; D. 28 at pg. 19), she admits

23a
Appendix B
that Burwell “requested” his presence, that Celso wanted
the overtime, and that he could have declined to take it
(D. 28 at pg. 3; 6).
The undisputed facts of this case necessitate granting
summary judgment in favor of the Defendant on this
issue. Viewing these facts in a light most favorable to the
Plaintiff, the Defendant’s Motion for Summary Judgment
is GRANTED. Given the Court’s finding on this issue,
the Court is not at liberty to address the Defendant’s
remaining argument.
CONCLUSION
Viewing the evidence of record in a light most
favorable to the Plaintiff, the Defendant’s Motion for
Summary Judgment (D. 26) is GRANTED. This matter
is hereby terminated.
						It is so ordered.
Entered on January 3, 2019
s/ Michael M. Mihm
Michael M. Mihm
Senior U.S. District Judge

24a
C
APPENDIX Appendix
C — DENIAL
OF THE
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, CHICAGO, ILLINOIS 60604,
FILED AUGUST 14, 2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
No. 19-1187
RITA GUERRERO, INDIVIDUALLY AND AS THE
SPECIAL ADMINISTRATOR OF THE ESTATE OF
CELSO N. GUERRERO, DECEASED,
Plaintiff-Appellant,
v.
BNSF RAILWAY COMPANY,
Defendant-Appellee.
Before
DIANE P. WOOD, Chief Judge
WILLIAM J. BAUER, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
August 14, 2019
No. 17-cv-1044
Appeal from the United States District Court
for the Central District of Illinois.
Michael M. Mihm, Judge.

25a
Appendix C
ORDER
On consideration of the petition for rehearing filed
by plaintiff-appellant on July 31, 2019, all members of the
original panel have voted to deny the petition for panel
rehearing.
Accordingly, the petition for rehearing is hereby
DENIED.

